TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Additional Action Is Needed to Expand the
                  Use and Improve the Administration of the
                              Free File Program



                                           June 28, 2007

                              Reference Number: 2007-40-105




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                DEPARTMENT OF THE TREASURY
                                                      WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 June 28, 2007


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



 FROM:                   (for) Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                     Final Audit Report – Additional Action Is Needed to Expand the Use
                              and Improve the Administration of the Free File Program
                              (Audit # 200640033)

 This report presents the results of our review to determine how effectively the Internal Revenue
 Service (IRS) is administering the Free File Program.1 This review is a continuation of our
 earlier work on the Free File Program2 and was conducted to address concerns raised by the
 Senate Finance Committee; the House Ways and Means Committee, Subcommittee on
 Oversight; and the IRS National Taxpayer Advocate.3

 Impact on the Taxpayer
 The Free File Program accounts for a small portion of individual tax returns filed. Only
 3 percent of individual taxpayers used the Free File Program in 2006. The IRS has made some
 improvements to the Program, including removing offers for Refund Anticipation Loans and
 other collateral solicitations, and most taxpayers who used the Free File Program to prepare and
 file their tax returns were satisfied with it. While the IRS has taken steps to effectively
 administer the Program, additional actions are needed to improve its usability and marketing.



 1
   The IRS established the Free File Program to allow taxpayers meeting certain income requirements to
 electronically prepare and file their individual income tax returns free of charge.
 2
   Use of the Free File Program Declined After Income Restrictions Were Applied (Reference Number 2006-40-171,
 dated September 29, 2006).
 3
   The Taxpayer Advocate Service is an IRS program that provides an independent system to ensure tax problems not
 resolved through normal channels are promptly and fairly handled.
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program




Synopsis
The IRS administers the Free File Program as a partnership with a consortium of tax software
providers called the Free File Alliance, which provides free electronic tax return preparation and
filing services for the Program.
The IRS can do more to evaluate and promote the Free File Program. While it has taken steps to
evaluate the experience of Program users, it has not collected data about taxpayers who
attempted to use the Program but did not or could not complete and file their tax returns or
eligible taxpayers who do not use the Program. Of the 93 million taxpayers eligible for the
Program in Calendar Year 2006, only 4.2 percent (3.9 million) used it. For the same year, the
Program accounted for only about 3 percent of all individual tax returns filed (compared to the
44 percent filed on paper). The IRS cannot make sound decisions on the success of the Program
without complete and accurate data about taxpayers’ experiences, including information on why
taxpayers are not using it. We believe the IRS could expand use of the Program by focusing its
marketing efforts on eligible nonusers who filed paper returns.
The IRS has taken steps to effectively administer the Free File Program. It conducts ongoing
reviews of the individual Alliance members’ compliance with the Free File and Operating
Agreements governing the Program. For the first time since the Program’s inception, the IRS
had the ability to independently gather data about taxpayers who used the Program. To evaluate
taxpayers’ experiences, the IRS conducted a Free File Program satisfaction survey, which
indicated that 94 percent of all Program users found it easy to use. Due to concerns raised about
the Program, the Alliance agreed to remove all ancillary products, including Refund Anticipation
Loans, from the Program. Although the IRS has taken steps to effectively administer the
Program, its efforts can be improved.
The IRS’ oversight reviews of the Alliance members were not fully documented. Alliance
members also incorrectly included the new Free File Indicator on approximately 37,000 returns
the taxpayers had actually paid to prepare and file. IRS procedures for conducting the
compliance reviews were incomplete, and the IRS did not have a formal process in place to
validate the accuracy of the Free File Indicator. Without proper oversight of the Alliance, it
cannot ensure the Program is providing the expected benefits to its intended recipients.
The Free File Program software did not always accurately compute taxes due, and the Guide Me
To A Company feature that helps taxpayers select a Program vendor was not always complete or
accurate. Errors and omissions in the tax preparation software and the tools provided by the IRS
to aid taxpayers when using the Program could undermine taxpayers’ confidence in the Program
and negatively affect the IRS’ efforts to reach its goal of increasing the use of electronic filing.
To identify other potential free tax return filing options available to the IRS, we visited the State
tax agencies for California, Kansas, Missouri, and Pennsylvania to discuss their free electronic
filing programs. The two programs that appeared to be the most feasible were direct filing and

                                                                                                        2
                  Additional Action Is Needed to Expand the Use and Improve the
                              Administration of the Free File Program



2-D Barcoded returns. Direct filing is an Internet-based filing option that allows a taxpayer to
file a State tax return directly with the State, without using third-party software. A 2-D Barcoded
return is prepared using tax preparation software. The IRS is in the process of modernizing its
electronic filing program through its Modernized e-File4 Project. However, IRS officials
indicated they have decided not to pursue 2-D Barcode technology at this time. Instead, the
2-D Barcode technology will be considered as part of a larger Modernized Submission
Processing effort that will not begin until 2010 or later. Neither the Modernized e-File Project
nor the 2-D Barcode filing option will eliminate the need for third-party involvement in the
electronic filing process.

Recommendations
We recommended the Director, Electronic Tax Administration, (1) develop a comprehensive
plan to evaluate and promote the Free File Program; (2) expand IRS marketing of the Program
by directing promotional materials to taxpayers who are eligible for the Program but have filed
their returns on paper; (3) establish a process to assess the accuracy of the Free File Indicator
early in the filing season;5 (4) establish a process to test the software used in the Program before
the filing season, to ensure common tax scenarios are handled accurately; and (5) work with the
Alliance to expand the Guide Me To A Company feature to include a description of special tax
situations (e.g., Earned Income Tax Credit, Retirement Savings Contribution Credit,6 casualty
losses) supported by each Alliance member.

Response
IRS management agreed with four of our five recommendations. The IRS will develop a
comprehensive marketing plan for the Free File Program and will consider surveying eligible
taxpayers who were either unsuccessful or chose not to use the Program. The IRS will also
expand its marketing of the Free File Program by directing promotional materials to eligible
taxpayers who filed their returns on paper. Finally, the IRS indicated it would work with the
Alliance to analyze the Free File Indicator and identify possible solutions to increase its accuracy
and establish a process to assess the Indicator’s accuracy early in the filing season. Management
did not agree with our recommendation to establish a process to test the software used in the Free
File Program to ensure common scenarios are being handled accurately. Management stated the
IRS already reviews the accuracy of Alliance members’ software to ensure it operates within the
parameters of the Free File Agreement, and other tests ensure these electronic returns are
compatible with IRS system requirements. However, these tests do not assess the accuracy of

4
  Electronic filing (e-file).
5
  The period from January through mid-April when most individual income tax returns are filed.
6
  A credit aimed at promoting tax-qualified retirement savings for middle- and low-income workers.
                                                                                                       3
               Additional Action Is Needed to Expand the Use and Improve the
                           Administration of the Free File Program



applying the tax law. Management stated testing of commercial tax preparation software to
determine its accuracy in applying the tax law would be a monumental challenge for the IRS.
Management’s complete response to the draft report is included as Appendix VI.

Office of Audit Comment
We agree that performing a quality review of all commercial tax preparation software to ensure
proper application of all tax laws would not be feasible. However, some quality review of the
software associated with the Program is warranted. The Free File Program is an
IRS-sponsored program. As such, taxpayers may assume the products they are using as part of
the Program are endorsed by the IRS. We are not suggesting the IRS review the Alliance
members’ software for all aspects of the tax law. Many Program users have common tax issues
that should be reviewed, such as claiming dependents, personal exemptions, and tax credits like
the Child Tax Credit and the Earned Income Tax Credit. The IRS could easily review the
products used as part of the Free File Program for these issues. We reviewed the Alliance
members’ software for several conditions using simple tax scenarios and limited staff. The IRS
indicated it communicates with Free File members when a specific problem is identified, sharing
suggestions for correction. However, the Free File Agreement does not require the member to
correct those errors. When we notified the IRS of the software errors we had identified, the IRS
stated it would notify the applicable members. However, these errors still had not been corrected
when we re-tested the members’ software in February 2007.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs), at (202) 622-5916.




                                                                                                4
                     Additional Action Is Needed to Expand the Use and Improve the
                                 Administration of the Free File Program




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Internal Revenue Service Can Do More to Evaluate and
          Promote the Free File Program .....................................................................Page 4
                    Recommendations 1 and 2: ..............................................Page 7

          Steps Have Been Taken to Improve the Administration of the
          Free File Program; However, Additional Actions Are Needed....................Page 8
                    Recommendation 3:........................................................Page 11

          Software Was Not Adequately Tested to Ensure Tax Returns
          Were Accurate ..............................................................................................Page 11
                    Recommendation 4: .................................................................. Page 13

          The Guide Me To A Company Feature for Selecting Free File
          Program Providers Was Not Always Complete or Accurate........................Page 15
                    Recommendation 5:........................................................Page 17

          Other Filing Options Are Being Considered ................................................Page 17

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 22
          Appendix II – Major Contributors to This Report ........................................Page 25
          Appendix III – Report Distribution List .......................................................Page 26
          Appendix IV – Taxpayer Scenarios Used to Test Software Accuracy.........Page 27
          Appendix V – Comparison of Free File Users to Nonusers .........................Page 29
          Appendix VI – Management’s Response to the Draft Report ......................Page 33
           Additional Action Is Needed to Expand the Use and Improve the
                       Administration of the Free File Program




                           Abbreviations

AGI                    Adjusted Gross Income
e-file; e-filing       Electronic filing
IRS                    Internal Revenue Service
RAL                    Refund Anticipation Loan
                      Additional Action Is Needed to Expand the Use and Improve the
                                  Administration of the Free File Program




                                                 Background

The Free File Program (the Program) is a service provided by the Internal Revenue Service (IRS)
that allows taxpayers meeting certain income requirements to electronically prepare and file their
U.S. Individual Income Tax Returns (Form 1040) free of charge. The IRS partnered with a
consortium of tax software companies known as the Free File Alliance, whose members offer tax
preparation software accessible to taxpayers from a personal computer. Taxpayers access the
software through the Free File Program webpage on the IRS Internet web site, IRS.gov
(see Figure 1), where they can prepare and file their returns electronically. The Program made
its debut in January 2003, and the number of returns filed through the Program grew from more
than 2.79 million returns in Calendar Year 20031 to 5.12 million returns in 2005.
                                              Figure 1: Free File Webpage




Source: IRS Free File Program webpage at IRS.gov.




1
    All dates in this report are calendar year unless otherwise stated.
                                                                                           Page 1
                  Additional Action Is Needed to Expand the Use and Improve the
                              Administration of the Free File Program



The IRS established the Free File Program in response to three tax-related reforms or initiatives.
    •   The President’s E-Government Initiative – the objective of this Initiative was to make
        it easier for citizens and businesses to interact with the Federal Government, save
        taxpayer dollars, and streamline citizen-to-Government transactions.
    •   The Office of Management and Budget EZ Tax Filing Initiative – the objective of this
        Initiative was to make it easier for citizens to file taxes in a web-enabled environment; its
        intent was that citizens would no longer have to pay for basic, automated tax preparation.
    •   The IRS Restructuring and Reform Act of 19982 – this Act established a goal for the
        IRS to have 80 percent of Federal tax and information returns filed electronically by the
        end of 2007 and required it to work with private industry to increase the use of electronic
        filing (e-filing).
In the initial Free File Agreement between the IRS and the Alliance, the Program was offered to
at least 60 percent of individual taxpayers. However, the Agreement did not prevent the Alliance
members from offering free services through the Program to all individual taxpayers, and in
2005 some of the Alliance members opened their offers to all individual taxpayers. The IRS and
the Alliance amended their Agreement in October 2005. The new Agreement restricted
eligibility for the Free File Program to no more than 70 percent of individual taxpayers, based on
adjusted gross income (AGI).3 For returns filed in 2006, taxpayers were eligible to use the
Program only if their AGI was $50,000 or less.4 While this still left 93 million taxpayers eligible
to use the Program, participation fell by more than 1 million tax returns (from 5.12 million
returns in 2005 to 3.9 million in 2006).
In January 2006, the Chairman of the House Ways and Means Committee, Subcommittee on
Oversight, asked the Treasury Inspector General for Tax Administration to assess the impact on
taxpayer service and e-filing resulting from changes in the Free File Agreement. In
September 2006, we reported that the Free File Program no longer met the intent of the
E-Government and EZ Tax Filing Initiatives to provide free tax preparation and filing services to
all citizens. Changes in the scope of the Free File Agreement had eliminated approximately
39 million taxpayers from eligibility for the Program.5
This review was performed to further evaluate the Free File Program; it included an evaluation
of the effectiveness of the IRS’ oversight of the Program, taxpayers’ experiences when using the


2
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
3
  AGI is income less certain deductions and/or expenses.
4
  The AGI limit may increase or decrease from year to year depending on the AGI level that corresponds to
70 percent of taxpayers.
5
  Use of the Free File Program Declined After Income Restrictions Were Applied (Reference Number 2006-40-171,
dated September 29, 2006).
                                                                                                      Page 2
               Additional Action Is Needed to Expand the Use and Improve the
                           Administration of the Free File Program



Program, characteristics of taxpayers participating in the Program, and whether there are other
viable free filing options. We performed our review at the IRS National Headquarters in
Washington, D.C., in the Office of Electronic Tax Administration. We also discussed free filing
options with officials from the California Franchise Tax Board, Kansas Department of Revenue,
Missouri Department of Revenue, and Pennsylvania Department of Revenue. The audit was
conducted during the period May through December 2006 and in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 3
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program




                                   Results of Review

The Internal Revenue Service Can Do More to Evaluate and Promote
the Free File Program
Compared to other methods of filing, the Free File Program accounts for a small portion of
individual tax returns filed. Only 3 percent of individual taxpayers used the Free File Program in
2006. Figure 2 shows the percentage of individual tax returns filed by filing method. Use of the
Program had been growing until 2006, when income restrictions were implemented. In 2006, the
overall use of the Program declined; this was in marked contrast to overall e-filing, which
increased by 6.4 percent. Decline in Program use appears to be continuing in 2007, as only
3.3 million taxpayers had used the Free File Program as of April 14, 2007, a decline of
4.7 percent from the same time last year.
             Figure 2: Filing Method of All Individual Taxpayers in 2006

                                                       Home Computer
                                                          (e-file)
                                                           13%

                                                                               Free File
                                                                                 3%
                  Paper
                   44%



                                                                               Paid Preparer
                                                                                  (e-file)
                                                                                   40%



              Source: IRS report on filing statistics entitled “2006 Filing Season Data.”

One of the purposes of the Free File Program is to bring new taxpayers into the IRS e-filing
program. Despite lower overall use of the Program in 2006, there is indication it is helping some
taxpayers to convert from filing paper returns to filing electronic returns: 24 percent
(819,000 taxpayers) of the Program’s users in 2006 were first-time electronic filers.




                                                                                               Page 4
                   Additional Action Is Needed to Expand the Use and Improve the
                               Administration of the Free File Program



Survey of Free File Program users
The IRS contracted with a marketing research company to perform a Free File Program
satisfaction survey6 for the 2006 Filing Season7 to measure taxpayers’ experiences with the
Program. The company surveyed by telephone 2,980 of the 3.9 million taxpayers who had
successfully prepared and filed their returns through the Program, to learn more about their
experiences. The objectives of the survey were to:
    •   Determine how taxpayers were introduced to the Program; their reasons for choosing the
        Program; how they used it; and how they perceived the product in terms of its ease of
        use, use of specific product features, and satisfaction with the usage experience.
    •   Provide results that can be used to assist the IRS with making policy decisions related to
        expanding the use of e-filing and to indicate appropriate, focused marketing strategies.
The survey showed 94 percent of taxpayers who used the Program believed it was easy to use,
and 94 percent stated they would use it again next year. The IRS has used the survey’s results
recently to demonstrate the success of the Program.
While there are benefits in evaluating the user satisfaction rate, we believe the survey is of
limited use in helping the IRS improve and market the Program. The survey results do not
reflect the experiences of those taxpayers who tried to use the Program but could not or did not
complete and file their tax returns. In addition, the survey did not include taxpayers who are
eligible for the Program but did not attempt to use it. To improve the Program, it is important for
the IRS to understand why some taxpayers tried but could not or chose not to complete and file
their returns and why so many eligible taxpayers did not even try to use the Program.

A change in marketing emphasis should be considered
We analyzed data for taxpayers who (1) used the Free File Program and (2) were eligible to use
the Program but did not in 2006 (see Appendix V for details). Our analyses pointed to three
main barriers to use of the Program: awareness, computer literacy, and return complexity. The
Program’s low participation rate may be an indicator that few taxpayers know about or
understand that they may be eligible for the Program. The IRS recently conducted focus groups
of taxpayers and also found that awareness was one of the main challenges facing the Program.
Younger taxpayers tend to be more knowledgeable about computers and are more likely to use
them to conduct business. According to a Department of Commerce study,8 70 percent of
individuals between the ages of 18 and 24 are most likely to use a computer. As shown in
Figure 3, most Free File Program users are in the younger age ranges.


6
  2006 Free File Cognitive & Behavioral Research.
7
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
8
  A Nation Online: Entering the Broadband Age, dated September 2004.
                                                                                                            Page 5
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



                         Figure 3: Age of Free File Program Users



                                           Ages Over 50
                                              10%
                                                             Ages Under 20
                                                                 18%
                         Ages 41-50
                            12%




                          Ages 31-40
                             17%
                                                               Ages 21-30
                                                                  43%




               Source: Our analysis of taxpayer data.

The type of return a taxpayer filed also appeared to be a factor in whether the taxpayer
participated in the Free File Program. Most Program users filed fairly simple returns without any
supporting schedules or forms. The more complex a return is, the more likely a taxpayer is to
seek the help of a professional or use a tax software package when preparing his or her return.
When we analyzed the data for taxpayers who were eligible for, but did not use, the Program, we
found 85 percent (68 million taxpayers) had used a paid professional or a tax software package to
prepare their returns in 2006. Of those, 31 percent filed their returns on paper. Some taxpayers
use software to prepare their returns but file the returns on paper because they do not want to pay
to file their returns electronically; others are concerned with the security of the e-filing system.
The IRS has limited funds available to promote its various programs; however, because
electronically filed returns cost less for the IRS to process, funds used to market the Free File
Program could be used to help the IRS lower its annual processing costs. The IRS significantly
expanded its marketing efforts for the Free File Program in 2007, spending approximately
$1.5 million for a marketing firm to develop and coordinate its Program marketing. One
marketing tool used was Internet banner advertising on common web sites. The IRS indicated
that this type of marketing is very expensive and a limited marketing budget restricts its ability to
use these methods effectively. While it may be one way to reach a large number of taxpayers,
Internet marketing does not appear to be the best method to promote the Free File Program to
taxpayers who are filing paper returns.



                                                                                              Page 6
                   Additional Action Is Needed to Expand the Use and Improve the
                               Administration of the Free File Program



Furthermore, the majority of IRS marketing was in the form of press releases and other media
sources. However, the IRS’ 2006 Free File Program satisfaction survey indicates only 9 percent
of taxpayers who used the Program learned about it through the media. Many of the users
(40 percent) learned about the Program from the IRS web site or IRS materials.
Given the limited use of the Program, a change in marketing emphasis should be considered.
The IRS successfully directed marketing in the past when it first started the TeleFile Program.
The IRS sent TeleFile packages to taxpayers who, based on their income and filing patterns,
appeared to be eligible to use TeleFile. Such a direct-mail approach with the Free File Program
may be the best avenue to reach eligible taxpayers.
We evaluated the characteristics of 34.6 million taxpayers who met the eligibility requirements
for the Free File Program but filed paper tax returns. Approximately 6 million (17 percent) of
these taxpayers had characteristics similar to those of the “typical” Program users (Single or
Head of Household filing status taxpayer between the ages of 18 and 28, AGI of $30,000 or less,
1 or no dependents, and no supporting schedules or forms). These taxpayers may be the most
likely to convert from paper to e-filing through the use of the Program. Moreover, the IRS may
be able to encourage taxpayers who file more complex paper returns to convert to e-filing by
emphasizing that common forms and supporting schedules can be filed using the Program.

Recommendations
Recommendation 1: The Director, Electronic Tax Administration, should develop a
comprehensive plan to evaluate and promote the Free File Program, including (to the extent
possible) conducting a survey of taxpayers who tried to use the Program but were unsuccessful
and taxpayers who were eligible for but chose not to use the Program.
        Management’s Response: IRS management agreed with this recommendation and
        plans to develop a comprehensive marketing plan for the Free File Program. They also
        plan to consider conducting a survey of taxpayers who tried to use the Program but were
        unsuccessful and taxpayers who were eligible for but chose not to use the Program.
Recommendation 2: The Director, Electronic Tax Administration, should expand the
marketing of the Free File Program by directing promotional materials to taxpayers who are
eligible for the Program but have filed their returns on paper. For example, the IRS could send
taxpayers who filed paper tax returns but appear to be eligible to use the Program a postcard
notifying them they may be eligible to prepare and file their returns electronically for free. The
IRS could also publicize the Program during interactions with taxpayers who call into the
toll-free telephone lines or visit Taxpayer Assistance Centers9 with tax return questions.


9
 Taxpayer Assistance Centers are a taxpayer’s source for personal tax help when his or her tax issue cannot be
handled online or by telephone and the taxpayer wants face-to-face assistance.
                                                                                                           Page 7
                  Additional Action Is Needed to Expand the Use and Improve the
                              Administration of the Free File Program



        Management’s Response: IRS management agreed with this recommendation and
        plans to expand the marketing of the Free File Program by directing promotional
        materials to taxpayers who are eligible for the Program but have filed their returns on
        paper. They also plan to consider expansion of Program marketing to programs available
        within the IRS, such as the toll-free telephone services and Taxpayer Assistance Centers.

Steps Have Been Taken to Improve the Administration of the Free File
Program; However, Additional Actions Are Needed
Although the Alliance is responsible for providing the actual services for the Free File Program,
the IRS is responsible for Program administration and oversight. Both the Free File Agreement
and the Operating Agreement contain a number of criteria the Alliance members must satisfy to
participate in the Program. The IRS reviews each Alliance member’s web site before the filing
season begins to ensure the member’s free offering satisfies these guidelines. A member’s free
offering is not posted on IRS.gov until the member is in compliance. The IRS continues to
review members’ compliance with the Agreements throughout the filing season.
The IRS must also evaluate the Program’s performance. In the 2006 Filing Season, for the first
time since the Program started, the IRS was able to independently determine how many
taxpayers used the Program. Beginning in 2006, the Alliance members included a Free File
Indicator on each return filed through the Program. This Indicator allowed the IRS to determine
how many taxpayers used the Program and to gather some general information about the
characteristics of these taxpayers. The IRS also took the first step in evaluating taxpayers’
satisfaction with the Program. In 2006, it conducted a satisfaction survey of Program users:
94 percent of the survey respondents believed the Program was easy to use, and 94 percent stated
they would use it again next year.
Furthermore, to address the concerns of Congress and the National Taxpayer Advocate10 with the
number of paid services the Alliance members were offering as part of the Free File Program, the
IRS and the Alliance amended the Operating Agreement by agreeing to remove all ancillary
products, including Refund Anticipation Loans (RAL), from the Program.

Reviews of individual Alliance member Free File Program web sites were not
adequately documented
Alliance members’ Free File Program web sites are not listed on IRS.gov until they meet certain
requirements outlined in the Operating Agreement. IRS test results showed some Alliance
members’ web sites did not meet all requirements of the Operating Agreement, and some of the
tests were incomplete. Because related documentation was not available, we were unable to


10
  The Taxpayer Advocate Service is an IRS program that provides an independent system to ensure tax problems
not resolved through normal channels are promptly and fairly handled.
                                                                                                       Page 8
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



determine what actions the IRS took to ensure these conditions were corrected. Therefore, we
could not verify whether the IRS adequately addressed all the conditions it had identified before
the Alliance members’ service offerings were posted on IRS.gov.
The Free File Agreement outlines standards of practice the Alliance is required to adhere to,
including requirements that each Alliance member must:
   •   Provide a link to its Program web site to allow examination by the IRS. Annual IRS
       examinations include an assessment of the usability of the Alliance member’s software
       program and compliance with the Operating Agreement.
   •   Disclose limitations of forms and schedules that are likely to be needed to support its free
       offering.
   •   Guarantee the calculations performed by its Federal Program offering.
   •   Clearly list its customer service options and associated fees.
   •   Have third-party security and privacy certifications.
The IRS tests each Alliance member’s web site before it is listed on IRS.gov. The testing covers
areas such as whether the member’s Program Internet homepage conforms to the Free File
Agreement and the Operating Agreement. In addition, the IRS reviews the member’s tax
preparation software to ensure it meets the requirements of the Operating Agreement. The
software review is not intended to test for technical accuracy but rather to identify treatment of
tax returns that qualify for the Free File Program as well as those that do not.
The IRS informed us that problems identified during its reviews of the Alliance members’ web
sites were investigated and resolved prior to the web sites being listed on the IRS Free File
Program webpage. However, the actions taken to investigate or correct these problems were not
documented.
According to the IRS, procedures and processes for reviewing Alliance members’ web sites were
being developed at the time the reviews were conducted for the 2006 Filing Season. There was
no process to facilitate documentation of the actions taken to investigate or correct problems
identified during its original review of Alliance members’ web sites.
Management Actions: The IRS established new procedures for reviews beginning in 2007.
These procedures are based on lessons learned to ensure each review guide is completed and any
violations are documented. The procedures also ensure actions taken after a review are
documented to show changes made, the date the change was verified, and the date the web site
passed the IRS review.




                                                                                            Page 9
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



Alliance members incorrectly assigned Free File Indicators to some taxpayers
who paid to file their returns
The Free File Indicator gives the IRS the ability to independently evaluate the success of the
Program. However, the IRS must rely on Alliance members to assign the Indicator to each
return filed through the Program. This Indicator shows the return was prepared and filed for
free. We analyzed all returns filed in January through May 2006 that had a Free File Indicator
and identified approximately 37,000 tax returns that had the Indicator on the returns even though
these taxpayers had paid to prepare and file their tax returns. While the number of returns we
identified is small compared to the 3.9 million taxpayers who used the Free File Program in
2006, the accuracy of the Indicator is crucial to the IRS’ ability to accurately monitor and
evaluate the success of the Program.
The IRS did not have a process in place to validate the Alliance members’ programming of the
Free File Indicator, to ensure it was properly programmed before the start of the 2006 Filing
Season. After we notified the IRS of the issue, it contacted the Alliance about these returns. The
Alliance stated almost 35,000 of the returns were the result of a programming error. Eleven of
the 20 Alliance members had incorrectly programmed the Indicator, causing every return
prepared from the members’ Free File Program webpage to have an indicator, regardless of
whether the return had qualified for the Program.
Any taxpayer can access a member’s Free File Program web site through IRS.gov and prepare
his or her return. However, at some point in the process, the taxpayer may be notified that he or
she does not qualify for the free services (e.g., AGI may be too high). Taxpayers who do not
qualify were given the option to pay for these services instead and continue preparing and filing
their tax returns. However, the Free File Indicator was not removed from these returns before
they were filed with the IRS.
The Alliance also stated that approximately 2,500 returns were filed through the Free File
Program by paid tax preparers who had charged taxpayers to prepare and file their tax returns.
The preparers then used the Program software provided by the Alliance to prepare the returns
and file them with the IRS. A tax preparer is required by law to enter his or her identification
number, called a Preparer Taxpayer Identification Number, on every return he or she prepares for
a fee. Only one Alliance member’s software provided the option to enter a Preparer Taxpayer
Identification Number. The Free File Agreement between the IRS and the Alliance does not
prevent paid tax preparers from using the Program, although that is not the Program’s intent.
Therefore, it is possible paid tax preparers used other members’ software and we were unable to
identify them.




                                                                                          Page 10
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



Recommendation
Recommendation 3: The Director, Electronic Tax Administration, should establish a process
to assess the accuracy of the Free File Indicator early in the filing season, including a review to
verify that only those returns qualified for the Free File Program have the Indicator.
       Management’s Response: IRS management agreed with this recommendation and
       plans to work with the Alliance to analyze the Free File Indicator and identify possible
       solutions for increasing its accuracy. They also plan to establish a process to assess the
       accuracy of the Indicator early in the filing season, including a review to verify that only
       qualified returns have the Indicator.

Software Was Not Adequately Tested to Ensure Tax Returns Were
Accurate
The IRS does not adequately test Alliance members’ software to ensure the accuracy of
calculations. We developed four common scenarios to test the software provided by the Alliance
members (see Appendix IV) and determined the software did not always compute the correct tax
amounts.
The software did correctly handle the following situations:
   •   Disallowed the filing of a return with an AGI greater than $50,000. However, the
       taxpayers were not notified that they did not qualify to use the Program until late in the
       return preparation process.
   •   Correctly computed the claims for the special casualty loss benefit for Hurricane Katrina
       victims when the necessary form was supported.
However, the software did not always accurately compute a tax return in the following
situations:
   •   Software for 25 percent of the members would not allow taxpayers to take either the
       Earned Income Tax Credit or the Child and Dependent Care Credit without also taking
       the dependency exemption. According to Earned Income Credit (EIC) (Publication 596),
       a taxpayer who meets the qualifications for the Earned Income Tax Credit and the Child
       and Dependent Care Credit may claim them even if the taxpayer does not claim a related
       dependency exemption.
   •   One member’s software allowed a dependency exemption that should not have been
       allowed.
   •   Software for 45 percent of the members did not have adequate interview questions to
       determine if the taxpayer could take the dependency exemption. However, the software

                                                                                            Page 11
                    Additional Action Is Needed to Expand the Use and Improve the
                                Administration of the Free File Program



           properly computed the return if the taxpayer already knew he or she did not qualify for
           the exemption.
Taxpayers must be able to rely upon the accuracy and thoroughness of the software they use to
calculate their returns. If their returns are calculated incorrectly, taxpayers could experience
increased burden if later reviews (audits) of their returns identify the mistakes or if they do not
receive credits they are entitled to receive. This could undermine taxpayers’ confidence in the
Free File Program and negatively affect the IRS’ efforts to reach its goal of increasing the
number of returns filed electronically. We were unable to project the number of returns affected
by these errors because the data we had available were not specific enough to determine how
many taxpayers’ filing situations involved the same criteria as those in our scenarios. However,
the scenarios were developed to test common occurrences. We notified the IRS of the software
errors and were informed that it would notify the applicable Alliance members so the errors
could be corrected. However, we followed up on these scenarios in February 2007 and found the
Alliance members involved had not yet corrected the errors we had identified.
According to Treasury Regulations,11 tax return preparers must exercise due diligence in
preparing or assisting in the preparation of tax returns filed with the IRS. In addition, the Free
File Program Operating Agreement requires Alliance members to guarantee the calculations
performed by their software packages. The IRS conducts two different tests on Alliance
members’ software. However, these tests do not adequately assess the accuracy of applying the
tax law.
The IRS reviews Alliance members’ software to ensure it operates within the parameters of the
Free File Agreement. The review is not intended to review for technical accuracy. Software
packages are also required to pass Participants Acceptance Testing System testing performed by
the IRS to ensure the returns transmitted electronically are compatible with IRS systems and the
software correctly calculates the tax returns. During this testing, the IRS develops scenarios for
tax returns to assess the accuracy of software packages.
In a review of the IRS’ process to ensure tax return preparation software developers are provided
with accurate tax law specifications, we reported that the Participants Acceptance Testing
System testing for tax preparation software was intended to ensure electronic returns can be
initially processed much like tax returns submitted on paper.12 The testing included scenarios to
ensure the correct application of the law. However, the test scenarios were not created to check
for misapplication of the tax law or for all situations and conditions relating to the laws. The
scenarios did not include facts that conflict with the law and would prevent a taxpayer from
receiving a credit. We recommended that, in addition to the Participants Acceptance Testing



11
     Treas. Reg. § 10.22 (2005).
12
     Opportunities Exist to Improve Tax Software Packages (Reference Number 2005-40-025, dated January 2005).
                                                                                                       Page 12
                   Additional Action Is Needed to Expand the Use and Improve the
                               Administration of the Free File Program



System and System Acceptability Testing,13 the IRS should conduct tests on any tax return
preparer software it selects before the software is used by IRS employees and volunteers to
prepare tax returns, to ensure returns prepared are accurate. The IRS responded that it would not
be feasible to perform additional testing on the tax return preparation software without impeding
the availability of the software products for its employees and volunteers and delaying the
processing of tax returns. The IRS also responded it could not contractually require that software
developers place their products under the IRS configuration management process.
Over one-half of the tax returns filed with the IRS are received electronically. As e-filing grows,
so does the reliance taxpayers put on tax preparation software. Taxpayers who use the Free File
Program access the Alliance members’ software through IRS.gov and may assume the IRS offers
some level of assurance as to the accuracy of the software.

Recommendation
Recommendation 4: The Director, Electronic Tax Administration, should establish a process
to test the software used in the Free File Program before the filing season, to ensure common
scenarios such as those we tested are being handled accurately. While this would not be
intended to offer absolute assurance of the software’s accuracy, it would help identify potential
problems early in the filing season.
         Management’s Response: IRS management disagreed with this recommendation,
         stating the IRS already reviews the accuracy of Alliance members’ software to ensure it
         operates within the parameters of the Free File Agreement. Other tests ensure these
         electronic returns are compatible with IRS system requirements and the software
         correctly calculates the entries on the return. However, these tests do not assess the
         accuracy of applying the tax law. Management stated testing of commercial tax
         preparation software to determine its accuracy in applying the tax law would be a
         monumental challenge for the IRS.
         Office of Audit Comment: We agree that performing a quality review of all
         commercial tax preparation software to ensure proper application of all tax laws would
         not be feasible. However, some quality review of the software associated with the
         Program is warranted. The Free File Program is an IRS-sponsored program. As such,
         taxpayers may assume the products they are using as part of the Program are endorsed by
         the IRS. We are not suggesting the IRS review the Alliance members’ software for all
         aspects of the tax law. Many Program users have common tax issues that should be
         reviewed, such as claiming dependents, personal exemptions, and common tax credits
         like the Child Tax Credit and the Earned Income Tax Credit. The IRS could easily


13
  The process of testing a system or program to ensure it meets the original objectives outlined by the user in the
requirement analysis document.
                                                                                                             Page 13
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



       review the products used as part of the Program for these issues. We reviewed the
       Alliance members’ software for several conditions using simple tax scenarios and limited
       staff. The IRS indicated it communicates with Free File members when a specific
       problem is identified, sharing suggestions for correction. However, the Free File
       Agreement does not require the member to correct those errors. When we notified the
       IRS of the software errors we had identified, the IRS stated it would notify the applicable
       members. However, these errors still had not been corrected when we re-tested the
       members’ software in February 2007.

Some improvements have been made to address the concerns of Congress and
the National Taxpayer Advocate
In April 2006, the Senate Finance Committee and the National Taxpayer Advocate raised
concerns about the Free File Program. Specifically, they were concerned about the marketing of
inappropriate products, difficulties in using the Program, and preparation of incorrect tax returns.
We included many of these concerns in our tests of the members’ software.
   •   We did not identify any unknown or hidden filing limits.
   •   While some Alliance members charged a fee to mail a copy of the tax return to the
       taxpayer, all companies offered taxpayers the option to print the returns themselves for
       free.
   •   The Program does not limit the number of dependents that can be claimed by a taxpayer.
       However, some Alliance members’ software packages do not support claiming more than
       four dependents.
   •   None of the members included a charge for preparing the Federal tax return if the State
       return was not prepared and filed through the member.
   •   All of the members displayed the charges for filing a State return on their Free File
       Program webpages, if applicable.
   •   No fees were charged for taxpayers to file an extension, although not all members
       supported the filing of extensions.
   •   Over one-half of the members promoted other products. Most of these products related
       to enhanced tax software or assistance. We did not identify any offers for inappropriate
       services such as “get rich quick” schemes.
   •   There were no solicitations to obtain a RAL (a loan designed to give a taxpayer his or her
       income tax refund immediately for a fee). We estimate approximately 19,000 of the
       3.9 million taxpayers who used the Program last year purchased a RAL. The Alliance
       and the IRS agreed to no longer offer RALs on the Program web sites. While our initial
       tests were performed after the peak of the filing season when many of these offers were

                                                                                            Page 14
                    Additional Action Is Needed to Expand the Use and Improve the
                                Administration of the Free File Program



           not in effect, we checked the Alliance web sites again in February 2007 to ensure these
           offers had been removed in accordance with the Free File Agreement.
It should be noted that our testing occurred after the Senate Finance Committee and the National
Taxpayer Advocate reported their concerns about the marketing of inappropriate products, the
Program’s difficulty to use, and incorrect tax returns. Although Alliance members may modify
their services throughout the filing season, it is reasonable to assume that we did not see the
conditions identified earlier because the Alliance members had made changes to their web sites
to address the concerns of Congress and the National Taxpayer Advocate.

The Guide Me To A Company Feature for Selecting Free File Program
Providers Was Not Always Complete or Accurate
Taxpayers must access the Free File Program through IRS.gov, which identifies the basic
requirements for participation in the Program and provides a feature, Guide Me To A Company14
(hereafter referred to as the Guide), to help taxpayers find a Program provider. The Guide gives
the taxpayer a number of providers to choose from based on general information provided by the
taxpayer such as age, AGI, State of residence, whether the taxpayer qualifies for the Earned
Income Tax Credit, and whether the taxpayer received military pay.
The individual Alliance members establish the eligibility requirements for participation in their
individual Free File Program offers. For example, some members restrict eligibility based on
age, whereas others base it on the State of residence. The members can change their
requirements no more than twice throughout the filing season.
We had evaluated the Guide as part of our prior work on the Free File Program. As a result of
that work, we recommended the IRS expand the Guide feature. To determine if the Guide is
now effective, in this audit we expanded the testing begun in our prior review. We developed
scenarios to test the responses the Guide provided to taxpayers in certain situations based on the
general information provided by the taxpayer.
The IRS considers the Free File Program one method to bring taxpayers into its e-filing program.
Errors and omissions in the Guide can increase taxpayers’ frustration with the Program and may
prevent them from using the Program or recommending it to others. This could also negatively
affect the IRS’ efforts to reach its goal of increasing the use of e-filing.
The IRS’ mission is to provide America’s taxpayers top-quality service by helping them
understand and meet their tax responsibilities and by applying tax law with integrity and fairness
to all. For the 2007 Filing Season, the IRS made improvements to its Free File Program
webpage and the Guide feature, including better disclosures of the services available in the
Program, a link to a Spanish Program webpage, and additional interview questions related to

14
     Formerly called Guide Me To A Service.
                                                                                             Page 15
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



State tax returns. While these updates should improve taxpayers’ experiences, the IRS can
further enhance the Guide.

The Guide Me To A Company feature did not reflect changes in one Alliance
member’s service requirements
The Guide was incorrectly programmed for one Alliance member. The member provided free
Federal online tax preparation and e-filing if a taxpayer’s AGI was $50,000 or less and the
taxpayer was age 50 or under. At the time of our review, the member did not restrict free filing
to certain States. Earlier in the filing season, this member had not had an age limit but had
restricted filing to certain States. The change in the member’s requirements did not get
programmed into the Guide.
We conducted 5 queries of the Guide using an age over 50 years; the Alliance member was
incorrectly displayed in all 5 query results. This could increase the burden of the approximately
23.5 million taxpayers over age 50 that may attempt to file using the member’s program, only to
learn they do not qualify for the free services. We also conducted queries of the Guide using
various States and determined some States did not display results for this member. This
unnecessarily restricts the choices of free service providers to taxpayers in these States. We
notified the IRS of this condition, and it reprogrammed the Guide to correctly reflect this
member’s requirements for receiving free services.

The Guide Me To A Company feature does not always meet taxpayers’ needs
In our prior review, we reported that, although the Guide instructs taxpayers which members
they qualify to use, it may be difficult for some taxpayers to determine which of those members
best meets their needs. Additional testing showed the Guide would advise taxpayers of members
that do not meet the taxpayers’ needs based on the forms needed to file their returns.
Incomplete information in the Guide increases the burden experienced by taxpayers who use the
Free File Program. The Guide provides taxpayers with a list of members that supposedly meet
their filing needs. However, taxpayers must access each member’s Free File Program webpage
separately to determine if the member offers all the forms and supporting schedules necessary to
file their returns. In some instances, a taxpayer may not even be aware that a specific form or
schedule is required until he or she has already begun to prepare the return. In this instance, the
taxpayer would be notified that he or she cannot file the return using the member’s product. The
only alternative is to begin again using another member’s product. It is also probable that
taxpayers may decide not to attempt to use the Free File Program again and choose to either
prepare their returns on paper or pay to have the returns prepared.




                                                                                           Page 16
                     Additional Action Is Needed to Expand the Use and Improve the
                                 Administration of the Free File Program



We tested a scenario that involved a casualty loss as a result of Hurricane Katrina and a
scenario that claimed the Retirement Savings Contribution Credit.15 When we tested the
Hurricane Katrina casualty loss scenario, the Guide showed we could use 16 members based on
age, AGI, and State of residence. However, 11 of the 16 members could not prepare our returns
because the software did not support the form necessary to claim the casualty loss as a result of
Hurricane Katrina.
Testing of the Retirement Savings Contribution Credit scenario using the Guide resulted in
identification of 19 members that qualified based on age, AGI, and State of residence. However,
2 of the 19 could not prepare the return because the software did not support Credit for Qualified
Retirement Savings Contributions (Form 8880). One member was not shown by the Guide
because we did not meet the member’s State of residence requirement. However, the member’s
software would have prepared the return correctly if we had met the other qualifications because
it supported the Form 8880.

Recommendation
Recommendation 5: The Director, Electronic Tax Administration, should work with the
Alliance to expand the Guide Me To A Company feature to include a generic description, by
Alliance member, of the types of special tax situations each member supports (e.g., Earned
Income Tax Credit, Retirement Savings Contribution Credit, casualty losses).
           Management’s Response: IRS management agreed with this recommendation and
           plans to consider the feasibility of expanding the Guide Me To A Company feature to
           include a generic description, by Alliance member.

Other Filing Options Are Being Considered
To identify other potential free tax return filing options available to the IRS, we visited the State
tax agencies for California, Kansas, Missouri, and Pennsylvania to discuss their free e-filing
programs. We determined the two most feasible programs were direct filing and 2-D Barcoded
returns. Direct filing is an Internet-based filing option that allows a taxpayer to file a State tax
return directly with the State, without using third-party software. A 2-D Barcoded return is
prepared using tax preparation software. When the return is printed, the software produces a
barcode that contains 100 percent of the return information. The taxpayer mails the
2-D Barcoded return to the State, which scans the barcode to enter the return information into its
computer system electronically. Some States allow taxpayers to prepare a 2-D Barcoded return
directly from their Internet web sites. These returns can also be prepared using purchased tax
preparation software or by a paid tax preparer.


15
     A credit aimed at promoting tax-qualified retirement savings for middle- and low-income workers.
                                                                                                        Page 17
                   Additional Action Is Needed to Expand the Use and Improve the
                               Administration of the Free File Program



The IRS currently has in the planning stage some alternative filing options that would increase
e-filing choices for taxpayers. The first is the I-File Program,16 the feasibility of which depends
on the capability of the IRS Modernized e-File Project.17 The second is 2-D Barcoded tax
returns, which would replace manual transcription with 2-D Barcode processing. Neither of
these options allows taxpayers to file a tax return directly with the IRS without the use of a third
party.

I-File Program
Twenty States have a form of direct filing. States are moving aggressively to use the Internet
and electronic technologies to improve taxpayer service and reduce their operating costs. The
IRS I-File Program is an extension of this approach and is consistent with the direction that State
Governments and the private sector are taking in terms of interacting with their customers. The
States view their direct-filing programs as aimed at a segment of the taxpayer population that is
comfortable with computers and electronic commerce. These taxpayers do not require a paid
preparer or commercial software to complete their State income tax obligations.
The Federation of Tax Administrators18 Executive Director cautioned that there are three issues
to consider in implementing a Federal direct-filing program similar to programs offered by
States.19
     •   Complexity – Federal return filing is more complex than return filing on the State level.
         Most State income tax is based on the Federal income tax base, and the bulk of entries
         and calculations on a State return involve only areas of deviations from numbers
         calculated for Federal tax purposes. All State direct-filing applications presume prior
         completion of a Federal tax return and begin with Federally computed numbers. For a
         Federal direct-filing program to be feasible, the IRS should consider limiting the types of
         returns and schedules available through the program to those considered less complex,
         such as the U.S. Individual Income Tax Return (Form 1040A) and Income Tax Return for
         Single and Joint Filers With No Dependents (Form 1040EZ). This would reduce
         complexity challenges.
     •   Security – Any breach of security or other lapse that caused a loss of taxpayer confidence
         in the system would have ramifications throughout the system.


16
   The I-file Program involves submitting an electronically prepared tax form directly to the taxing authority’s
Internet web site.
17
   The IRS Modernized e-File Project is the future of e-filing with the IRS. The Project’s goal is to replace the
current filing technology with a modernized, Internet-based e-filing platform for any IRS form.
18
   The Federation of Tax Administrators is an association of the principal tax administration agencies in each of the
50 states, the District of Columbia, and New York City.
19
   Preparing Your Taxes: How Costly Is It? Statement of the Federation of Tax Administrators Before the
Committee on Finance, United States Senate (April 4, 2006).
                                                                                                             Page 18
                  Additional Action Is Needed to Expand the Use and Improve the
                              Administration of the Free File Program



     •   Scalability – A single Federal return application would require considerable peak load
         capacity. This peak load requirement could be alleviated in part by limiting the types of
         returns for which the application could be used and possibly extending the due date for
         such returns.
A major deciding factor for the IRS in providing the I-File Program is the capability of its
Modernized e-File Project. As part of this Project, the IRS has developed a web-based platform
for filing tax and information returns through the Internet via third parties. The IRS intends to
begin adding Form 1040 in 2009; however, these plans are uncertain. The IRS has not decided
how the Form 1040 series of returns and related schedules will be made available for use. In
addition, plans to schedule Modernized e-File Project development of the Form 1040 series are
pending approval from the Office of Management and Budget.
The I-File Program is a step toward improving taxpayers’ abilities to file their returns
electronically. However, it does not eliminate the need for third-party involvement. In 2006,
roughly 19 million taxpayers purchased a software package to prepare and file their tax returns.
Providing direct Internet access to prepare and file tax returns would enable these taxpayers to do
the same without incurring a fee. Some members of Congress believe the IRS should provide
tax preparation and filing services directly from its Internet web site. The Government
Accountability Office recently issued a report on the challenges the IRS would face in
implementing an Internet filing system.20

2-D Barcoded returns
The IRS has considered plans to replace the costly and labor-intensive process of transcribing tax
return information with a 2-D barcode on the face of a newly designed Form 1040. This process
would condense and print all of the return information into a barcode located on the front of the
tax return. The IRS would then use hand-held scanners to scan each barcode and capture
100 percent of the return data. Figure 4 presents an example of a State 2-D Barcoded return.




20
  Taxpayer Service: State Experiences Indicate IRS Would Face Challenges Developing an Internet Filing System
with Net Benefits (GAO-07-570, dated April 2007).
                                                                                                     Page 19
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



                     Figure 4: Example of a 2-D Barcoded Tax Return




       Source: Missouri Department of Revenue. The information contained in this figure is hypothetical
       and presented for illustration only.

The IRS Wage and Investment Division stated in its Fiscal Year 2007-2008 Strategy and
Program Plan that it planned to replace the costly and labor-intensive process of transcribing tax
return information with a 2-D barcode on the face of a newly designed Form 1040 by the
2009 Filing Season. The 2-D barcode would allow the IRS to process paper returns more
efficiently while reducing the number of errors. During 2006, approximately 39 million
taxpayers used a software package to prepare their returns but printed and filed the returns on
paper. A 2-D barcode program would enable the IRS to enter the data on these paper returns
more rapidly and reduce the likelihood of transcription errors. Some States estimate that
barcodes reduce the time and effort involved in processing paper returns by 50 percent to
90 percent. States also estimate that use of a barcode is $.57 to $.70 cheaper than use of a
conventional paper return. However, Wage and Investment Division officials recently indicated
they have decided not to pursue 2-D Barcode technology at this time. Instead, the 2-D Barcode
technology will be considered as part of a larger Modernized Submission Processing effort that
will not begin until 2010 or later.



                                                                                                      Page 20
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



In one State we visited, the State’s Free File Alliance had refused to provide 2-D Barcoded
returns through its software packages if the State did not do away with its direct-filing program.
In this particular State, over 50 percent of paper returns filed are 2-D Barcoded returns. To
protect its 2-D Barcode Program, the State found it necessary to partner with the State’s Free File
Alliance.
Although the IRS is considering other e-filing options, neither option currently under
consideration will eliminate the need for a taxpayer to file a return through a third party. The
IRS also does not anticipate providing taxpayers with the ability to prepare their tax returns
directly from IRS.gov. As a result, even taxpayers who choose to use a 2-D Barcoded return will
first have to purchase a software package or pay a tax preparer to prepare the returns.




                                                                                           Page 21
                   Additional Action Is Needed to Expand the Use and Improve the
                               Administration of the Free File Program



                                                                                                  Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to determine how effectively the IRS administered the Free File
Program (the Program). To accomplish this objective, we:
I.      Evaluated the effectiveness of the IRS’ oversight of the Free File Program.
        A. Interviewed Electronic Tax Administration management and obtained documentation
           to evaluate the process used to provide oversight of the Program to ensure the Free
           File Alliance1 members satisfy the terms of the Agreement.
        B. Identified efforts by Electronic Tax Administration management to ensure all
           taxpayers, regardless of financial position, are offered free e-filing services;
           determined the method used to promote or inform taxpayers the Program is available;
           and identified IRS efforts to use these tools to promote the Program.
        C. Evaluated the IRS’ efforts to determine why taxpayers did not participate in the
           Program and evaluated its process for determining taxpayer satisfaction with the
           Program during the 2006 Filing Season.2
        D. Assessed the accuracy of the Free File Indicator by comparing the Indicator counts
           taken from the IRS Tax Return Database3 to the counts of Program returns provided
           by the IRS. We determined whether the Indicator was applied to any returns with a
           paid preparer indicator and/or an AGI4 greater than $50,000 and assessed the impact
           on the reliability of Program information by determining the number of incorrect
           Program participants involved in any discrepancies identified. We determined the
           reliability of the Tax Return Database data by comparing critical fields on a small
           number of cases to the same fields on the Individual Master File.5
II.     Evaluated taxpayers’ experiences when using the Free File Program.
        A. Evaluated the Alliance members’ software packages to determine the accuracy of tax
           computations for common taxpayer situations. We input four predeveloped scenarios



1
  The Free File Alliance is a consortium of tax software companies whose members offer tax preparation software
accessible to taxpayers from a personal computer.
2
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
3
  The Tax Return Database is a relational database that stores tax return information submitted by the taxpayer.
4
  Adjusted gross income is income less certain deductions and/or expenses.
5
  The Individual Master File is the IRS database that maintains transactions or records of individual tax accounts.
                                                                                                          Page 22
                     Additional Action Is Needed to Expand the Use and Improve the
                                 Administration of the Free File Program



               to each Alliance member’s software program and determined whether the software
               correctly computed the tax due.
           B. Evaluated the Guide Me To A Company feature on IRS.gov to determine whether the
              list of Alliance members given to taxpayers are providers that best meet their needs.
              We queried the feature’s options to determine whether companies that do not meet a
              taxpayer’s qualifications are eliminated. We tested age, AGI, State of residence,
              Earned Income Tax Credit eligibility, and military income.
           C. Evaluated each Alliance member’s Free File Program web site and software for
              unknown or hidden limits, extra fees for printing a tax return, customer service, or tax
              questions. We determined whether there were charges for (1) preparing a Federal tax
              return if a State return was not filed, (2) State returns evident on landing page,6 and
              (3) returns with more than four dependents. We determined (1) the point at which a
              taxpayer is told he or she does not qualify for free services or the point at which the
              taxpayer is told there is a fee for filing a State return or for other services, (2) whether
              there was a link back to the IRS Free File Program landing page if a taxpayer finds he
              or she no longer qualifies for that company’s offer, and (3) whether the taxpayer had
              the ability to file an extension and there were any related fees. We also evaluated the
              promotion of ancillary products, including product upgrades.
           D. Determined whether taxpayers choosing the RAL option are provided with required
              disclosure information by determining the number of times a taxpayer was asked
              whether he or she wanted a RAL. We evaluated whether it was clearly disclosed that
              the RAL is a loan, the terms were clear, and the “free” offer was contingent on
              obtaining a RAL.
           E. Obtained and validated statistics on the percentage of taxpayers who accepted RALs.
              The RAL information was extracted from the Tax Return Database; we determined
              the reliability of the Tax Return Database data by comparing critical fields on a small
              number of cases to the same fields on the Individual Master File.
III.       Researched other free filing options that may be suitable for the IRS to use by reviewing
           IRS webpages and individual State web sites to determine what other options for free
           filing are available. We interviewed personnel in the State tax agencies for California,
           Kansas, Missouri, and Pennsylvania to determine the costs of offering these services and
           the benefits of direct-filing programs to their individual States; reviewed IRS webpages
           to determine what other options for free filing are available for special interest groups;
           identified the IRS’ plans for addressing individual tax returns in its Modernized e-File
           Project, determined whether these plans will ensure free filing for all taxpayers, and



6
    A landing page is the first Internet page a person views when completing access to a web address.
                                                                                                        Page 23
              Additional Action Is Needed to Expand the Use and Improve the
                          Administration of the Free File Program



      identified the timeline for implementation of the individuals phase of the Project; and
      determined the IRS’ plans for developing return free filing.
IV.   Evaluated the Free File Program participant characteristics to determine why taxpayers
      may not be participating in the Program and how the IRS can more effectively promote
      e-filing. We performed a computer analysis of the Tax Year 2005 Tax Return Database
      for taxpayers who filed using the Program, to evaluate characteristics of these taxpayers.
      We analyzed this same file for taxpayers who were eligible to but did not file using the
      Program, to evaluate the characteristics of eligible but nonparticipating taxpayers. These
      records were matched to the Tax Year 2005 Individual Master File Returns Transaction
      File on the Treasury Inspector General for Tax Administration’s Data Center Warehouse
      to obtain additional data fields. We determined the reliability of the Tax Return Database
      and Individual Master File Returns Transaction File data by comparing critical fields on a
      small number of cases to the same fields on the Individual Master File. We compared the
      taxpayer characteristics in both groups to identify barriers to participating in the Program.
      See Appendix V for details.




                                                                                           Page 24
              Additional Action Is Needed to Expand the Use and Improve the
                          Administration of the Free File Program



                                                                           Appendix II


                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Scott A. Macfarlane, Director
Deann L. Baiza, Audit Manager
Kathleen A. Hughes, Lead Auditor
Linda L. Bryant, Senior Auditor
Glory Jampetero, Senior Auditor
Sharla J. Robinson, Senior Auditor
Arlene Feskanich, Information Technology Specialist




                                                                                   Page 25
              Additional Action Is Needed to Expand the Use and Improve the
                          Administration of the Free File Program



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Electronic Tax Administration, Wage and Investment Division SE:W:ETA
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 26
                  Additional Action Is Needed to Expand the Use and Improve the
                              Administration of the Free File Program



                                                                                              Appendix IV

Taxpayer Scenarios Used to Test Software Accuracy

We developed four taxpayer scenarios1 to test the accuracy of the Free File Alliance2 member
software used for the Free File Program. These scenarios incorporate common taxpayer
characteristics related to filing status and dependency issues as well as special legislation related
to the 2005 Hurricane Katrina victims. Our scenarios were also used to test when in the process
taxpayers received notification that they did not qualify for the Free File Program. We tested all
of the Alliance members’ software using the following scenarios.
    •   Scenario 1: The taxpayer is divorced and lived with her 10-year-old child. Taxable
        wages were $28,383, and $712 was contributed to the employer’s 401(k) retirement plan.
        Interest income was $82.12. As part of the divorce agreement, the taxpayer signed a
        Release of Claim to Exemption for Child of Divorced or Separated Parents (Form 8332).
        The taxpayer received $275 a month for child support. Babysitting expenses totaled
        $946. This scenario tested whether the Alliance members’ software correctly calculated
        the Child Tax Credit, the Child and Dependent Care Credit, dependency exemption,
        Earned Income Tax Credit, filing status, and Retirement Savings Contribution Credit.3
        Software for 25 percent of the members incorrectly prevented the taxpayer from claiming
        either the Earned Income Tax Credit or the Child and Dependent Care Credit because the
        ex-spouse was taking the dependency exemption.
    •   Scenario 2: The taxpayer has never been married and lived in her sister’s home. The
        taxpayer’s 12-year-old child and 9-year-old child lived with the taxpayer and her sister in
        the sister’s home during school vacations and the months of June, July, and August
        (a total of 4 months). The children lived with their father during the school year. The
        taxpayer works part time and earned $13,315 a year. The sister earned $52,000. This
        scenario tested whether the Alliance members’ software correctly calculated the Child
        Tax Credit, dependency exemption, Earned Income Tax Credit, and filing status. One
        Alliance member’s software allowed a dependency exemption that should not have been
        allowed. Software for 45 percent of the members had inadequate interview questions to
        determine whether the taxpayer could take the dependency exemption; however, if the
        taxpayer was aware that she should not claim the dependency exemption, the software
        would compute the return correctly.

1
  These scenarios present hypothetical taxpayer situations. They do not present actual taxpayer or tax return
information.
2
  The Free File Alliance is a consortium of tax software companies whose members offer tax preparation software
accessible to taxpayers from a personal computer.
3
  A credit aimed at promoting tax-qualified retirement savings for middle- and low-income workers.
                                                                                                        Page 27
            Additional Action Is Needed to Expand the Use and Improve the
                        Administration of the Free File Program



•   Scenario 3: The taxpayer is single with no dependents. He had wages of $52,000 and
    interest income of $35. The taxpayer wants to take out a RAL if that option is provided.
    He does not want a direct deposit. This scenario tested the point in the return preparation
    process at which the Alliance members’ software informed the taxpayer that he did not
    qualify for the Free File Program. The Alliance members’ software correctly disallowed
    a return with AGI over $50,000 to be filed for free at the time of our review. However,
    the taxpayer was not notified that he did not qualify for the Program until late into the
    return preparation process.
•   Scenario 4: The taxpayer is a helicopter pilot and is single with no dependents. The
    taxpayer had wages of $54,500 and interest income of $301. He was divorced during
    2005, and the divorce decree requires alimony payments of $600 per month beginning in
    March 2005. He works on oil rigs and is gone 1 week at a time. He has been renting a
    room in a historic home in New Orleans since his divorce. He does not normally itemize
    his deductions. He is a Hurricane Katrina victim. This scenario tested whether the
    Alliance members’ software correctly calculated a special casualty loss benefit for
    Hurricane Katrina victims. Not all Alliance members’ software supported the form
    necessary to claim the casualty loss. However, the software provided by members who
    supported the form correctly computed the loss.




                                                                                       Page 28
                     Additional Action Is Needed to Expand the Use and Improve the
                                 Administration of the Free File Program



                                                                                                Appendix V

             Comparison of Free File Users to Nonusers

We compared data for taxpayers who used the Free File Program (the Program) in 2006 to data
for those who were eligible for the Program but did not use it, to identify potential barriers to use
of the Program. The average Program user is in a young age range (18 years to 28 years) and
unmarried. Users filed fairly simple tax returns with no supporting schedules, and many could
be claimed as a dependent by someone else. The majority of Program users had an AGI1 of
$30,000 or less, and most received a small refund ($1,000 or less). We compared these
characteristics to those of all eligible taxpayers who did not use the Free File Program to
determine if there were any significant differences between taxpayers who used the Program and
those who did not.
We did not identify any significant differences in users’ and nonusers’ AGIs. The majority of
Program users had an AGI of $30,000 or less. The majority of Program-eligible nonusers also
had an AGI in this range.
                   Figure 1: Percentages of Free File Program Users and Nonusers
                                          (by AGI Range)

                                                             Program Program-Eligible
                                     AGI                      Users      Nonusers
                                                             (Actual)   (Projected)
                      Less than or equal to $10,000            32%               27%
                      $10,001 to $20,000                       26%               25%
                      $20,001 to $30,000                       21%               20%
                      $30,001 to $40,000                       13%               16%
                      $40,001 to $50,000                       7%                12%
                     Source: Our analysis of taxpayer data. Percentages may not total 100 percent
                     due to rounding.




1
    AGI is income less certain deductions and/or expenses.
                                                                                                     Page 29
               Additional Action Is Needed to Expand the Use and Improve the
                           Administration of the Free File Program



Almost one-half of the Free File Program users had total income between $10,001 and $30,000.
This did not vary significantly from the income levels of Program-eligible nonusers.
          Figure 2: Percentages of Free File Program Users and Nonusers
                             (by Total Income Range)

                       Total Income                   Program         Program-Eligible
                                                       Users              Nonusers
                                                      (Actual)           (Projected)
             Less than or equal to $10,000              32%                   26%
             $10,001 to $20,000                         26%                   25%
             $20,001 to $30,000                         21%                   20%
             $30,001 to $40,000                         13%                   16%
             $40,001 to $50,000                          7%                   12%
            Source: Our analysis of taxpayer data. Percentages may not total 100 percent due
            to rounding.

Further analysis of total income showed wages were the sole source of income for 69 percent of
all Free File Program users. Another 29 percent (about 1.1 million users) had income from
wages and at least 1 other source (e.g., self-employment income). Two percent of Program users
had income from a source other than wages or self-employment income. Program-eligible
nonusers had similar trends, but a smaller percentage of nonusers had income from wages only
(45 percent or approximately 35.8 million nonusers). However, about 38 percent (30.6 million
nonusers) had income from wages and another source, and about 11 percent had income from
sources other than wages or self-employment.




                                                                                               Page 30
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



          Figure 3: Percentages of Free File Program Users and Nonusers
                              (by Source of Income)

                     Source of Income                  Program         Program-Eligible
                                                        Users              Nonusers
                                                       (Actual)           (Projected)
               Wages                                      69%                  45%
               Wages and Other Sources                    29%                  38%
               Self-Employment                            1%                    5%
               Other Sources                              2%                   11%
               No Income                                  0%                    1%
             Source: Our analysis of taxpayer data. Percentages may not total 100 percent due
             to rounding.

There were significant differences in the ages of taxpayers who used the Free File Program and
those who were eligible to but did not. Most Program users were in the younger age ranges;
61 percent were age 30 or under. The majority (45 percent) of Program-eligible nonusers were
over age of 40.
          Figure 4: Percentages of Free File Program Users and Nonusers
                                 (by Age Range)

                             Age                     Program         Program-Eligible
                                                      Users              Nonusers
                                                     (Actual)           (Projected)
                Under 20                                18%                  13%
                21 to 30                                43%                  26%
                31 to 40                                17%                  17%
                41 to 50                                12%                  16%
                Over 50                                 10%                  29%
               Source: Our analysis of taxpayer data. Percentages may not total 100 percent
               due to rounding.

We also identified a significant difference in the filing status taxpayers used to file their tax
returns. While 55 percent of all Program-eligible nonusers filed their returns as a single
taxpayer, more than 73 percent of taxpayers who used the Program filed as single taxpayers.
Almost 23 percent of nonusers filed as married taxpayers filing a joint return compared to
11 percent of users who used the Married Filing Jointly status.

                                                                                                Page 31
                Additional Action Is Needed to Expand the Use and Improve the
                            Administration of the Free File Program



          Figure 5: Percentages of Free File Program Users and Nonusers
                                (by Filing Status)

                        Filing Status                    Program          Program-Eligible
                                                          Users               Nonusers
                                                         (Actual)            (Projected)
            Single                                          73%                   55%
            Head of Household                               15%                   20%
            Married Filing Jointly                          11%                   23%
            Married Filing Separately                        1%                    2%
           Source: Our analysis of taxpayer data. Percentages may not total 100 percent due to
           rounding.

It is also important to understand how taxpayers who used the Free File Program have filed their
tax returns in the past. One of the goals of the Program was to increase the use of e-filing, and
the Program has been somewhat successful in that endeavor. About 24 percent of the taxpayers
who used the Program in 2006 filed a paper return in 2005 and approximately 64 percent filed
electronically in 2005.
          Figure 6: Percentages of Free File Program Users and Nonusers
                                (by Filing Method)

                       Filing Method                    Program         Program-Eligible
                                                         Users              Nonusers
                                                          2005                2006
                                                        (Actual)           (Projected)
              Paper                                       17%                   34%
              Paper Computer Generated                     7%                   21%
              Electronic Self-prepared                    55%                   10%
              Electronic – Practitioner                    9%                   35%
              Did Not File                                12%                    0%
            Source: Our analysis of taxpayer data. Percentages may not total 100 percent due to
            rounding.




                                                                                                  Page 32
   Additional Action Is Needed to Expand the Use and Improve the
               Administration of the Free File Program



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 33
Additional Action Is Needed to Expand the Use and Improve the
            Administration of the Free File Program




                                                        Page 34
Additional Action Is Needed to Expand the Use and Improve the
            Administration of the Free File Program




                                                        Page 35
Additional Action Is Needed to Expand the Use and Improve the
            Administration of the Free File Program




                                                        Page 36
Additional Action Is Needed to Expand the Use and Improve the
            Administration of the Free File Program




                                                        Page 37
Additional Action Is Needed to Expand the Use and Improve the
            Administration of the Free File Program




                                                        Page 38
